USCA4 Appeal: 20-4036

Doc: 33

Filed: 01/21/2021

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-4036
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
RASHAWN DONNELL WILLIAMS,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Robert J. Conrad, Jr., District Judge. (3:18-cr-00117-RJC-DCK-l)
Submitted: January 19, 2021

Decided: January 21, 2021

Before AGEE, WYNN, and DIAZ, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Robert C. Carpenter, ALLEN, STAHL + KILBOURNE, PLLC, Asheville, North Carolina,
for Appellant. Amy Elizabeth Ray, Assistant United States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Asheville, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 20-4036

Doc: 33

Filed: 01/21/2021

Pg:2of3

PER CURIAM:
Rashawn Donnell Williams appeals his convictions and the 336-month sentence
imposed following Williams’ guilty plea, pursuant to a Fed. R. Crim. P. 11(c)(1)(C) plea
agreement, to attempted murder of a federal employee (and aiding and abetting), in
violation of 18 U.S.C. §§ 1114, 2, and discharging a firearm during and in relation to a
crime of violence (and aiding and abetting), in violation of 18 U.S.C. §§ 924(c), 2.
Appellate counsel has filed a brief pursuant to Anders v. California, 386 U.S. 738 (1967),
primarily questioning whether, in light of United States v. Davis, 139 S. Ct. 2319 (2019),
Williams’ § 924(c) conviction was supported by a valid predicate crime of violence.
Williams raises the same argument in his pro se supplemental brief. The Government has
declined to file a response.
Our recent ruling in United States v. Taylor, 979 F.3d 203 (4th Cir. 2020), forecloses
a Davis challenge to Williams’ § 924(c) conviction, which was predicated on attempted
murder. * Specifically, Taylor instructs that an attempt to commit a substantive crime that
itself “requires the use of physical force” likewise “necessarily involves the attempted use
of force” and so, too, qualifies as a categorical crime of violence. 979 F.3d at 209. As we
explained in Taylor, it is settled in this circuit that murder qualifies as a crime of violence
under the force clause because it requires such a use of force. Id. (citing United States v.
Mathis, 932 F.3d 242, 265 (4th Cir.), cert, denied, 140 S. Ct. 639, and cert, denied, 140 S.

* This appeal, which was held in abeyance for Taylor, became ripe for adjudication
upon the issuance of the mandate in Taylor.
2

USCA4 Appeal: 20-4036

Doc: 33

Filed: 01/21/2021

Pg:3of3

Ct. 640 (2019), and In re Irby, 858 F.3d 231, 236 (4th Cir. 2017)). In light of these
authorities, we reject Williams’ argument that his § 924(c) conviction is invalid under
Davis.
In accordance with Anders, we have reviewed the entire record in this case and have
found no meritorious grounds for appeal. We agree with counsel’s assessment that neither
ineffective assistance of counsel nor prosecutorial misconduct are apparent on the face of
this record. We therefore affirm the criminal judgment. This court requires that counsel
inform Williams, in writing, of the right to petition the Supreme Court of the United States
for further review. If Williams requests that a petition be filed, but counsel believes that
such a petition would be frivolous, then counsel may move in this court for leave to
withdraw from representation. Counsel’s motion must state that a copy thereof was served
on Williams.
We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

3

USCA4 Appeal: 20-4036

Doc: 40

Filed: 03/01/2021

Pg: 1 of 1

FILED: March 1,2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4036
(3:18-cr-00117-RJC-DCK-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
RASHAWN DONNELL WILLIAMS
Defendant - Appellant

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor. Clerk

